     Department of Homeland Security

     ��������������������������



Costs Incurred by the Washington Metropolitan Area 

              Transit Authority under 

    Transit Security Grant No. 2009-RA-R1-0102 





OIG-13-112                               August 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      AUG 28 2013

MEMORANDUM FOR:              Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Incurred by the Washington Metropolitan Area
                             Transit Authority under Transit Security Grant No. 2009-
                             RA-R1-0102
�
Attached for your action is our final letter report, Costs Incurred by the Washington
Metropolitan Area Transit Authority under Transit Security Grant No. 2009-RA-R1-0102.
We incorporated the formal comments from the Associate Administrator for Policy,
Program Analysis and International Affairs in the final report.

The report contains three recommendations aimed at improving the Transit Security
Grant program’s overall effectiveness. Your office concurred with all
recommendations. Based on information provided in your response to the draft report,
we consider the recommendations resolved and open. Once your office has fully
implemented the recommendations, please submit a formal close-out letter to us within
30 days so that we may close the recommendations. The memorandum should be
accompanied by evidence of completion of agreed-upon corrective actions. Please
email a signed PDF copy of all closeout requests to OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Brooke Bebow, Director; Lisa Vonder Haar, Audit
Manager; Shamika Morris, Auditor; Shanelle Jones-Quintanilla, Program Analyst; and
John Shiffer, Referencer.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment



                                              �

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $150 million for Public Transportation Security Assistance and Railroad
   Security Assistance. The Federal Emergency Management Agency (FEMA) administered
   these funds through its Transit Security Grant Program, which primarily funded
   operational packages for canine, mobile explosives screening, and antiterrorism teams,
   and capital projects for activities such as infrastructure protection.

   In 2009, FEMA awarded $9,560,064 to the Washington Metropolitan Area Transit
   Authority (WMATA) for the creation of antiterrorism teams (ATT). Specifically, the grant
   funded 20 Metro Transit Police Department sworn officer positions, which were used to
   form 5 permanent ATTs. From August 1, 2009, through June 30, 2012, WMATA
   reported project costs totaling $7,590,766. As of June 30, 2012, WMATA had been
   reimbursed for $1,058,080 of these costs. The majority of the claimed costs consisted
   of personnel expenses for the ATTs and overtime for the officers assigned to backfill the
   positions for the newly formed ATTs.

   Reimbursement for eligible project costs is based on the Department’s fiscal year (FY)
   2009 American Recovery and Reinvestment Act Transit Security Grant Program Guidance
   and Application Kit (Transit Security Grant Guidance); 44 Code of Federal Regulations
   (CFR) Part 13, Uniform Administrative Requirements for Grants and Cooperative
   Agreements to State and Local Governments; and 2 CFR Part 225, Cost Principles for
   State, Local and Indian Tribal Governments, formerly Office of Management and Budget
   (OMB) Circular A-87. The grantee must also comply with OMB Circular A-133 (Revised),
   Audits of States, Local Governments and Non-Profit Organizations.

   The objective of this audit was to determine whether costs claimed by WMATA were
   allowable, allocable, and reasonable according to the grant agreement and applicable
   Federal requirements.

   Results of Audit
   The reimbursed project costs of $1,058,080 were allowable, allocable, and reasonable.
   We reviewed an additional $2,701,174 of the $7,590,766 in reported project costs and
   determined that these costs were allowable, allocable, and reasonable. However, we
   identified three areas in which FEMA and WMATA can improve the management of the
   Recovery Act Transit Security Grant:

           WMATA inaccurately reported $194,284 in fringe benefit costs on its Federal
           Financial Report;

www.oig.dhs.gov                                2                                      OIG-13-112
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              WMATA did not disclose more than $4.7 million in grant-related expenditures in
              FYs 2010 and 2011 as required by Federal regulations; and

              WMATA did not manage all grant-funded equipment inventory according to
              Federal regulations. 1

   Reporting of Federal Expenditures

   Federal Financial Report

   According to 44 CFR 13.20(b)(1), grantees’ financial management systems must allow
   for accurate, current, and complete disclosure of the financial results of financially
   assisted activities, according to the reporting requirements of the grant. Transit Security
   Grant Guidance requires grantees to submit quarterly Federal Financial Reports to FEMA
   that show the grant obligations and expenditures.

   As of June 30, 2012, WMATA reported cumulative expenditures of $7,590,766 on its
   Federal Financial Report. The report included $194,284 in fringe benefits costs that
   exceeded the grant’s allowable rate. This occurred because WMATA did not identify the
   unallowable fringe benefit costs before submitting the Federal Financial Report.
   Although WMATA had procedures for identifying allowable costs, it did not have a
   procedure to ensure that fringe benefit expenditures were not reported in excess of the
   grant’s allowable rate. According to WMATA, the unallowable fringe benefit costs were
   adjusted in its December 2012 Federal Financial Report. As of December 31, 2012,
   these costs had not been reimbursed. Without sufficient controls to ensure that
   expenditures are accurately reported, WMATA cannot ensure that requests for
   reimbursements do not include unallowable costs.

   Single Audit Reports

   All non-Federal entities that expend $500,000 or more in Federal awards in a year must
   obtain an annual audit as required by the Single Audit Act Amendments of 1996 and
   OMB Circular A-133. A single audit is intended to provide a cost-effective audit for non-
   Federal entities, in that one audit is conducted in lieu of multiple audits of individual
   programs. In preparation for a single audit, OMB Circular A-133 requires grantees to list
   individual Federal programs by agency and total Federal awards expended for that fiscal
   year. The special conditions of the grant award also require recipients to separately
   identify the expenditures for each grant award funded under the Recovery Act.



   1
       WMATA’s fiscal year begins on July 1 and ends on June 30 of the following year.

www.oig.dhs.gov                                          3                               OIG-13-112
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   WMATA did not disclose more than $4.7 million in Recovery Act Transit Security Grant-
   related expenditures in FYs 2010 and 2011, as required by these regulations. Our office
   notified the audit firm responsible for performing the single audit of the nondisclosure
   of these project costs, and the audit firm reported this as a material weakness in its
   2012 single audit report. WMATA concurred with the audit firm’s recommendation for
   corrective action.

   Internal Controls for Safeguarding Assets

   According to 44 CFR 13.32(d)(3), a property control system must be developed to ensure
   adequate safeguards to prevent the loss, damage, or theft of grant-funded property.
   Also, property records must include the location of the property.

   WMATA did not manage grant-funded equipment inventory according to these
   regulations. During our site visit in March 2013, WMATA officials were unable to locate
   a Raman spectrometer, valued at more than $68,000.2 The location of the spectrometer
   was unknown because ATT officers were not required to sign out equipment. In
   addition, the ATTs did not maintain a control system to track the location of the
   equipment. WMATA located the missing spectrometer 6 days after our site visit.
   However, without an adequate control system that includes tracking of equipment
   procured with grant funds, WMATA cannot ensure that equipment is properly
   safeguarded and available when needed.

   Recommendations
   We recommend that the Assistant Administrator, Grant Programs Directorate:

   Recommendation #1:

   Require WMATA to develop procedures to ensure that expenditures are accurately
   reported on its Federal Financial Reports.

   Recommendation #2:

   Verify that WMATA has implemented corrective action in response to the material
   weakness identified in the 2012 single audit report.




   2
    A Raman spectrometer is a handheld instrument that allows officers to rapidly identify unknown solid
   and liquid chemicals directly in the field.

www.oig.dhs.gov                                       4                                             OIG-13-112
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Recommendation #3:

   Require WMATA to develop procedures for safeguarding assets procured with Recovery
   Act grant funds.


   Management Comments and OIG Analysis
   FEMA’s Response to Recommendation #1: FEMA concurred with this recommendation.
   FEMA’s Grant Programs Directorate will engage with WMATA to ensure that, by October
   2013, procedures are in place to report expenditures on Federal Financial Reports
   accurately.

   OIG Analysis: We consider FEMA’s actions responsive to the intent of this
   recommendation, which is resolved and open. This recommendation will remain open
   pending confirmation that WMATA has developed adequate procedures for accurately
   reporting its grant expenditures.

   FEMA’s Response to Recommendation #2: FEMA concurred with this recommendation.
   FEMA’s Grant Programs Directorate will engage with WMATA to ensure that, by October
   2013, an automatic reporting system has been created to prevent any further material
   weaknesses in future audits.

   OIG Analysis: We consider FEMA’s actions responsive to the intent of this
   recommendation, which is resolved and open. This recommendation will remain open
   pending confirmation that WMATA has developed an adequate automatic reporting
   system to prevent further material weaknesses in future audits.

   FEMA’s Response to Recommendation #3: FEMA concurred with this recommendation.
   FEMA’s Grant Programs Directorate will engage with WMATA to ensure that, by October
   2013, it develops a procedure for safeguarding grant assets at the officer level.

   OIG Analysis: We consider FEMA’s actions responsive to the intent of the
   recommendation, which is resolved and open. This recommendation will remain open
   pending confirmation that WMATA has developed a procedure for safeguarding assets
   purchased with grant funds at the ATT officer level.




www.oig.dhs.gov                             5                                    OIG-13-112
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by WMATA were
   allowable, allocable, and reasonable according to the grant agreement and applicable
   Federal requirements. To accomplish our audit objective, we examined reimbursed
   project costs of $1,058,080 and selected a judgmental sample of $2,701,174 from
   WMATA’s total reported project costs of $7,590,766 for August 1, 2009, through June
   30, 2012. In conducting our audit, our tests and procedures included the following:

           Reviewing the Recovery Act, the grant application and award, Transit Security
           Grant Guidance, and Federal cost principles and grant administration
           requirements;

           Interviewing FEMA officials regarding their oversight of the Recovery Act Transit
           Security Grant awarded to WMATA;

           Interviewing WMATA officials to gain an understanding of their accounting
           system and applicable internal controls;

           Examining payroll records, vendor invoices, and other supporting costs for our
           judgmental sample of reported costs, as well as WMATA’s payroll and
           accounting procedures;

           Reviewing accounting transactions related to wages, overtime and fringe benefit
           payments, and related claims for FEMA reimbursements;

           Reviewing contract files for the vendors selected to provide equipment for the
           ATTs;

           Reviewing the single audit reports for the fiscal years ending June 30, 2011, and
           June 30, 2012, to identify issues and other conditions that could affect our audit;
           and



www.oig.dhs.gov                                 6                                       OIG-13-112
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Reviewing WMATA OIG audit reports related to WMATA’s financial system.

   We relied on computer processed data provided by WMATA for information regarding
   transactions recorded in its accounting records. We conducted limited tests on this data
   against source documentation to ensure that the data were sufficiently reliable to be
   used in meeting our audit objective.

   We conducted this performance audit between August 2012 and May 2013, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based on our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective.




www.oig.dhs.gov                               7                                      OIG-13-112
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security

   Appendix B
   Management Comments to the Draft Letter Report

                                                                                       U.:>. l)epartmcnl   or Homeland Sccuritv
                                                                                       Washin~ton. DC 20472                  ·




                                                JUL 1 2 2013
              MEMORANDUM FOR:               Anne L. Richards
                                            Assistant Inspector General for Audits (010)
                                            Department of Homeland Security
                                                                 ll   ,\J .-. ~
              FROM:                    W    David J. Kaufinan V)(JA.>Y'"""
                                       V    Associate Administrator for
                                            Policy, Program Analysis and Internationa l Affairs
                                            Federal Emergency Management Agency (FEMA)

              SUBJECT:                      FEMA's Response to OIG-12-165-AUD-FEMA DRAFT
                                            REPORT: "Costs Incurred by the Washington Metropolitan Area
                                            Transit Authority under Transit Security Grant No. 2009-RA-R 1-
                                            0102".


              Thank you for the opportunity to review and comment on 010- 12-165-AUD-FEMr\ DRAfT
              REPORT : "Costs Incurred by the Washington Metropolitan Area Transit Authority under Transit
              Security Grant No. 2009-RA-Rl-OI 02".

              OIG Recommendation 1: We recommend that the Assistant Administrator, Grant Programs
              Directorate require WMATA to develop procedures to ensure that expenditures are accurately
              reported on its Federal Financial Reports.

              FEMA Response to Recommendation 1: Concur. FEMA's Grant Program Directorate will
              engage with WMATA to ensure that procedures are in place w ithin 90 days of the date of this
              response in order for all expenditures to be accurately reported on all federal Financial Reports.

              OIG Recommendation 2: We recommend that the Assistant Administrator, G rant Programs
              Directorate verify that WMATA has implemented corrective action in response to the material
              weakness identified in the 2012 si11gle audit report.

              FEMA Response to Recommendation 2: Concur. FEMA's Grant Program Division will
              engage with WMA T A to ensure that an automatic reporting system has been created and
              implemented within 90 days of the date of this response in order to prevent any further material
              weaknesses in future audits. WMATA is aware of this weakness and have i ndicated they will
              create an automatic report whicb will prevent this issue from arising in the future.




                                                                                      www fcma.gov




www.oig.dhs.gov                                                  8                                                                OIG-13-112
                    g      ~
                               .
                               .   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              OIG Recommendation 3: We recommend that the Assistant Administrator, Grant Programs
              Directorate require "WMATA to develop procedures for safeguarding assets procured with
              Recovery Act grant funds.

              FEMA Response to Recommendation 3: Concur. FEMA' s Grant Programs Pirectorate will
              engage with WMA T A to ensure that a more robust sign in and sign out procedure for safe
              guarding TSGP ARRA assets is implemented within 90 days of the date of this response. While
              WMATA currently has a sign in and sign out system to safe guard assets; FEMA will work with
              WMATA to ensure another layer of safe guarding assets exist at the officer level.

              Thank you again for the opponunity to comment on OIG-12-165-AUD-FEMA DRAFT
              REPORT: "Costs Incurred by the Washington Metropolitan Area Jransit Authority under Transit
              Security Grant No. 2009-RA-Rl-0102" and for the work that you and your team have done to
              better inform us throughout this audit so that we may enhance the program's overall
              effectiveness. Please direct any questions regarding this response to Gary McKeon, FEMA' s
              Chief Audit Liaison, at 202-646-1308.




                                                           2




www.oig.dhs.gov                                             9                                               OIG-13-112
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Departmental Recovery Act Coordinator
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Branch Chief, Transportation Infrastructure Security
   Chief, Audit Branch, Grants Program Directorate

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  10                        OIG-13-112
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
